             AUTOMATED TRANSPORTATION PAYMENTS



Report No. D-2001-148                            June 22, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information System Agency
DITSCAP               Defense Information Technology Security Certification and
                         Accreditation Process (DoD Instruction 5200.40)
FFMIA                 Federal Financial Management Improvement Act of 1996
GAO                   General Accounting Office
LOA                   Line of Accounting
MRM                   Management Reform Memorandum
OMB                   Office of Management and Budget
ST&E                  Security Test & Evaluation
                          Office of the Inspector General, DoD
Report No. D-2001-148                                                    June 22, 2001
 (Project No. D1999FI-0080.000)

                        Automated Transportation Payments

                                  Executive Summary

Introduction. The 1997 Quadrennial Defense Review directed DoD to revolutionize its
business practices. As a result, the Under Secretary of Defense (Comptroller) issued
Management Reform Memorandum No. 15, “Reengineering Defense Transportation
Documentation and Financial Processes-Prototype Implementation.” The reform
memorandum required DoD to reengineer and streamline untimely, paper-based, and
labor-intensive commercial transportation documentation, billing, collection, and payment
processes. To meet the reengineering goals, DoD announced on March 31, 1999, a
transition to the U.S. Bank PowerTrack® service for payment of freight transportation
charges. PowerTrack®, an online freight payment and transaction tracking system, is the
cornerstone of the DoD effort to reengineer transportation payment and accounting
processes. Before the transition to PowerTrack®, DoD annually processed approximately
1.25 million transportation freight payments totaling approximately $1 billion.

Objectives. The audit objective was to determine whether controls over commercial freight
transportation payments processed through PowerTrack® are effective. Specifically, the
audit determined whether the lines of accounting and management information captured in
PowerTrack® and the summarized data provided to the Defense Finance and Accounting
Service are sufficient for payment and accounting purposes. We also determined the
adequacy of controls over certification of PowerTrack® invoices for payment.

Results. The DoD transportation community’s automated transportation process is already a
major improvement from the previous manual process, but additional measures are warranted
to effectively reengineer transportation freight operations.

Accounting procedures used to process commercial transportation freight payments through
PowerTrack® needed reengineering. DoD did not optimally streamline its internal procedures
to attain the objectives of Management Reform Memorandum No. 15 or to take advantage of
the automated efficiencies offered by the PowerTrack service. Instead, DoD was adapting
streamlined automated capabilities to perpetuate less efficient business practices. DoD was
unnecessarily incurring processing costs and late payment charges, and creating problem
disbursements as it attempted to annually distribute $1 billion of transportation costs to
thousands of lines of accounting. If DoD revises current accounting procedures to use
centrally managed open allotments to fund transportation freight payments, it would better
achieve its reform objectives (finding A).

Controls over security and management of the automated transportation payment process
were not adequate to safeguard sensitive information or produce reliable data. DoD risks
exposing data to unauthorized parties and noncompliance with public laws and regulations,
operating in a business environment with inadequate management controls, and allowing
Transportation Officers to assume responsibilities and associated liabilities more
appropriately belonging to the financial community (finding B).
Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) establish and fund Component-level open allotments for transportation freight,
retain Certifying Officer responsibilities at the Defense Finance and Accounting Service, and
revise the DoD Financial Management Regulation. We recommend that the Under Secretary
of Defense for Acquisition, Technology, and Logistics appoint an executive agent for
PowerTrack® operations. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) clarify guidance in regard to system security and
Designated Approving Authority responsibilities associated with commercially owned
electronic commerce applications. We also recommend that standard contract language be
developed to address system security in commercially owned electronic commerce
applications and that the security connection and controls associated with PowerTrack® be
validated. We recommend that the U.S. Transportation Command, establish controls over
PowerTrack® operations at each transportation office, implement Public Key Infrastructure
procedures and update the Defense Transportation Regulations. We recommend that each
Military Component Chief Information Officer incorporate PowerTrack® into base level
System Security Authorization Agreements and operate all mobile code in compliance with
DoD policy.

Management Comments. The Department of the Army did not respond to a draft of this
report issued February 7, 2001. However, we received comments from the Deputy Chief
Financial Officer, Under Secretary of Defense (Comptroller); the Assistant Deputy Under
Secretary of Defense (Transportation Policy); the Deputy Chief Information Officer,
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence); the
Department of the Navy; and the Department of the Air Force. The Deputy Chief Financial
Officer, Under Secretary of Defense (Comptroller) nonconcurred with the recommendation
on simplified accounting, stating that the use of centrally managed open allotments for fund
management is problematic and prone to misuse. The Assistant Deputy Under Secretary of
Defense (Transportation Policy) coordinated her response with the U.S. Transportation
Command and generally nonconcurred with the recommendations on security, stating that
PowerTrack® is a commercial application and because DoD has no software rights to this
application, DoD system security requirements do not apply. In addition, management
agreed in principle with those recommendations addressed to the U.S. Transportation
Command, but believed that the recommendations should be addressed to the Military
Components and Defense agencies. The Deputy Chief Information Officer, Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) generally
concurred with the recommendations, stating that guidance was available that addressed
requirements for the electronic commerce applications and that requirements for electronic
commerce applications would be included in a new guidance series being issued. The
Department of the Navy concurred with recommendations, stating that PowerTrack® will be
incorporated into base level System Security Assessment Agreements and mobile code will
be used in accordance with DoD policy. The Department of the Air Force concurred with
the recommendation, stating that it will instruct all parties to comply with DoD mobile code
policy. See the Management Comments section for the complete text of management
comments.

Audit Response. We agree that implementation of PowerTrack® has greatly improved DoD
transportation management. Constructively addressing the issues identified by the audit
would add to that success. Specifically, our recommendations pertaining to centralized open
allotments, strengthened controls, and increased information assurance would significantly
assist DoD in achieving its long-term management improvement goals by reducing cost and
operational risk in its freight transportation program. We request that the Under Secretary of
Defense (Comptroller); Under Secretary of Defense for Acquisition, Technology, and
Logistics; the Department of the Army; and the Department of the Air Force provide
additional comments to the final report by August 17, 2001.


                                              ii
Table of Contents

Executive Summary                                                             i


Introduction
     Background                                                               1
     Objectives                                                               3

Findings
     A. Accounting for Automated Transportation Payments                      4
     B. Controls Over Automated Transportation Payments                      14

Appendixes
     A. Audit Process
         Scope and Methodology                                               30
         Management Control Program Review                                   32
         Prior Coverage                                                      32
     B. Automated Transportation Payment Process                             34
     C. Examples of Lines of Accounting                                      36
     D. Criteria                                                             37
     E. Report Distribution                                                  40

Management Comments
     Under Secretary of Defense (Comptroller)                                43
     Under Secretary of Defense for Acquisition, Technology, and Logistics   47
     Assistant Secretary of Defense (Command, Control, Communications
       and Intelligence)                                                     56
     Department of the Navy                                                  58
     Department of the Air Force                                             59
Background
    The DoD transportation mission involves many transportation communities and
    assets, services, and systems owned by, contracted for, or controlled by DoD.
    The entire infrastructure supports the transportation needs of DoD in peace and in
    wartime. The U.S. Transportation Command serves as the manager of the
    transportation community and is supported by three Component commands: the
    Military Traffic Management Command; the Military Sealift Command; and the
    Air Mobility Command.

    DoD relies heavily on its commercial transport partners to support its mission.
    Approximately 88 percent of all DoD surface shipments are made by commercial
    carriers. According to the U.S. Transportation Command, DoD processed
    approximately $1 billion worth of commercial freight shipments in FY 1999.
    Table 1 identifies FY 1999 DoD commercial freight costs by mode of
    transportation.

                Table 1. FY 1999 DoD Commercial Transportation
                         Freight Costs
                                                     Amount
                  Modes of Transportation          (in Millions)
                Surface                                 $ 693.4
                  Truck/Barge              $564.5
                  Fuel pipelines              68.9
                  Rail                        60.0
                Sealift                                    193.7
                Airlift                                      61.9
                Express Shipments                            75.0
                 Total                                 $1,024.0

    According to the transportation community, transportation freight costs are
    expected to decrease from approximately $1 billion to $883 million during
    FY 2001.
    Criteria Addressing PowerTrack® Functionality. No formal criteria specifically
    addresses the security and management control issues associated with electronic
    commerce applications used but not owned by the Government, such as
    PowerTrack®. The use of the PowerTrack® service to make transportation freight
    payments is a new way of doing business for DoD, one that will become more
    common as DoD moves toward contracting for services based on commercial
    models. As DoD employs commercial applications, it must establish and
    implement adequate business rules and safeguards. DoD does not own or maintain
    the PowerTrack® service. Nevertheless, the PowerTrack® service processes,
    transmits, stores, and displays DoD information and is an integral part of the
    transportation freight payment process. Based on PowerTrack® functionality, we
    consider it to be a DoD system and subject to substantially the same statutory and
    regulatory guidelines as any other DoD information system.

    Management Reform Memorandum No. 15. The Secretary of Defense 1997
    “Quadrennial Defense Review” directed DoD to revolutionize its business
    practices. As a result, the Under Secretary of Defense (Comptroller) issued



                                         1
            Management Reform Memorandum (MRM) No. 15 on July 7, 1997. The
            objective of MRM No. 15 was to reengineer and streamline DoD commercial
            transportation documentation, billing, collection, and payment processes. The
            specific reengineering goals included the following:

                    •    reducing infrastructure costs,

                    •    eliminating DoD-unique documentation and processes,

                    •    reducing data requirements,

                    •    improving data accuracy,

                    •    developing a single documentation and billing process for all modes of
                         transportation,

                    •    employing best commercial practices,

                    •    maintaining readiness capability, and

                    •    increasing the use of electronic commerce.

            In an effort to meet the MRM No. 15 objectives, DoD announced on March 31,
            1999, the conversion to U.S. Bank's PowerTrack® service for the payment of
            commercial transportation freight charges. The PowerTrack® service provides
            DoD with a means to completely reengineer transportation documentation,
            accounting, and payment processes.

            U.S. Bank PowerTrack Service. The PowerTrack® service is a commercial
            on-line freight payment and transaction tracking system developed by U.S. Bank.
            U.S. Bancorp is the holding company for PowerTrack® and owns the registered
            PowerTrack® trademark. The PowerTrack® service provides carriers and DoD
            shippers (Transportation Officers) with on-line access to shipment data; matches
            freight bills of lading and corresponding invoices; processes payments to carriers;
            and provides relatively real-time analytical reporting tools. The PowerTrack®
            service was intended to electronically interface with DoD accounting systems. In
            addition, PowerTrack® stores DoD transportation data and reduces the need to
            maintain DoD-unique documentation.

            Automated Transportation Payments. Although used exclusively for
            transportation freight shipments, the automated transportation payments
            processed through the PowerTrack® service are similar to credit card
            transactions. Commercial carriers enter an agreement1 with U.S. Bank. Each
            DoD transportation office has an account with U.S. Bank and will process its
            transportation freight payments through PowerTrack®. Each month,
            PowerTrack® generates an invoice for each DoD transportation office and
            summarizes the shipments by DoD funding account or line of accounting (LOA).
            See Appendix B for a flowchart of the DoD automated transportation payment
            process.

1
    U.S. Bank pays the carrier for delivery of freight shipments and assesses a processing fee of between 1 and
    2 percent of the transportation cost.



                                                         2
    DoD began processing payments through PowerTrack® as a prototype in
    April 1998 for surface transportation and later began adding transportation modes.
    Thus, the initial focus of this audit was centered on surface, or specifically, truck
    carriers. As of August 25, 2000, 360 (68 percent) of 532 DoD shipping sites and
    282 commercial carriers were using PowerTrack®. Subsequent to the completion
    of audit fieldwork, the Assistant Deputy Under Secretary of Defense
    (Transportation Policy) reported that 158 additional DoD shipping sites and
    67 commercial carriers were using PowerTrack®. The additional sites were not
    verified by audit.

    Automatic Carrier Payment Approval. PowerTrack® has an automatic carrier
    payment approval tool (AutoApproval). The AutoApproval tool approves each
    shipment that meets predefined parameters for carrier payments. Shipments
    meeting these parameters will be automatically approved for payment and will not
    require the transportation office to initiate on-line manual approval for individual
    transactions. The goal is to have 95 percent of all carrier invoices approved and
    paid through AutoApproval within 3 days of receipt.

Objectives
    The audit objective was to determine whether controls over the commercial freight
    transportation payments processed through PowerTrack® are effective.
    Specifically, the audit determined whether the LOAs and management information
    captured in PowerTrack® and the summarized data provided to the Defense
    Finance and Accounting Service (DFAS) were sufficient for payment and
    accounting purposes. We also determined the adequacy of controls over the
    certification of PowerTrack® invoices. See Appendix A for a discussion of the
    scope, methodology, management controls, and prior coverage of the audit
    objectives.




                                          3
           A. Accounting for Automated
              Transportation Payments
           Accounting procedures used to process automated transportation freight
           payments need further reengineering to achieve optimal benefits from the
           PowerTrack® initiative. DoD did not sufficiently streamline its internal
           procedures to attain the objectives of MRM No. 15 or to take advantage of
           the automated efficiencies offered by the PowerTrack® service. Instead,
           DoD was adapting streamlined automated capabilities to perpetuate less
           efficient business practices. As a result, DoD was unnecessarily incurring
           processing costs and late payment charges and creating unmatched
           disbursements as it attempted to annually manage $1 billion of
           transportation costs in over 13,000 lines of accounting (LOA).

Reengineering Effort
    The DoD transportation community is undertaking significant measures to
    reengineer transportation freight operations. We support their efforts as they
    strive to meet this challenge. Transportation freight payments have long been an
    area of concern within DoD. Before the Under Secretary of Defense
    (Comptroller) issued MRM No. 15, transportation freight practices were outdated,
    cumbersome, costly, and incapable of producing reliable management
    information. We believe that the current reengineering effort is proceeding in the
    right direction. From an operations perspective, it has produced significant
    results, reducing the time required to pay carrier invoices from an average of
    60 days to 3 days, and increasing visibility of transactions at all levels. However,
    DoD needs to adopt commercial internal management and accounting practices to
    fully achieve its goal and realize the benefits of revolutionizing transportation
    freight operations.

Accounting Procedures
    Although a step in the right direction, the reengineering efforts of DoD did not do
    enough to keep transportation funds management and accounting procedures from
    being paper-burdened and labor-intensive. Current legislation and Office of
    Management and Budget (OMB) guidance supports simplified funds control.
    However, DoD continued to use cumbersome and costly accounting and
    management practices that generated thousands of LOA to track its transportation
    freight costs. DoD was unable to effectively capture consistent and reliable
    management information through its LOA. Maintaining accurate and valid LOA
    remains a challenge for DoD.

    Fund Control. Section 1514, title 31, United States Code, “Administrative
    Division of Apportionments,” stipulates that agencies should have simplified
    systems for administratively dividing appropriations at the highest possible level. In
    addition, OMB Circular No. A-34, “Budget Justification,” Section 21.3, “Fund
    Control,” recommends that responsibility for budget control be placed at the highest
    organizational level that is consistent with effective and efficient management and
    control. Instead, Military Departments and Defense agencies allotted transportation
    freight funding to the lowest organizational level. These procedures were


                                          4
           counterproductive. To achieve optimum efficiency and effectiveness, DoD should
           restrict the administrative division of transportation funds to the highest possible
           level.

           Use of Lines of Accounting. The Department’s use of LOAs was predicated on
           its administrative division of funds, user needs, and reporting requirements. For
           example, management created thousands of unique LOAs to track the division of
           funds and provide detailed management data such as the mode of transportation.
           New LOAs were created daily when bill of lading numbers were included or
           transportation costs were tracked to a specific project, sub-project, or job order
           number. The transportation and accounting communities were unable to
           determine the precise number of LOAs but estimated that over 13,000 were used
           to process approximately $1 billion in transportation freight costs each year.

           Cost of Current Accounting Practices. Benefits derived from existing accounting
           practices did not warrant the cost incurred to verify the accuracy and validity of the
           thousands of unnecessarily detailed LOAs being processed. Transportation of
           Things2 object class represents approximately 1 percent of the DoD-wide budget.
           Yet in FY 1999, we estimated that DoD activities paid approximately $18.1 million
           to process approximately 1.25 million transportation freight payments, or $14.14
           per payment. In addition, DoD incurred late payment charges while attempting to
           fund and validate the LOAs and to reconcile the payments. From February 1999
           through May 2000, DoD used 8,468 unique LOAs to process 1.3 million shipments
           costing $149 million through PowerTrack®. Ninety percent of the transactions
           processed used less than 1 percent (69 of 8,468) of the LOAs. DFAS was only able
           to validate 2,270 LOAs, or approximately 27 percent. The remaining 73 percent of
           the LOAs were inadequate to effect payment and required reconciliation. To ensure
           accuracy and reliability, the LOAs need to be simplified. We were unable to
           identify the value added by maintaining inaccurate and invalid LOAs to manage the
           Department’s transportation funds. See Appendix C for examples of DoD use of
           transportation LOAs.

Streamlining Effort
           The DoD did not optimally streamline transportation freight management and
           accounting procedures to attain the objectives of MRM No. 15 or to take
           advantage of the automated efficiencies that the PowerTrack® service offered.
           DoD did not effectively reduce the number of LOAs, which resulted in the need
           to use alternate LOAs and develop and maintain up-front LOA conversion tables
           to meet payment and accounting requirements. The reengineered procedures
           accommodated and perpetuated inefficient accounting procedures.

           Request to Reduce the Number of LOAs. To facilitate the flow of accurate
           accounting data, the Deputy Secretary of Defense directed the Services and the
           Defense Logistics Agency to reduce the number of transportation LOAs used
           and to report the status of their efforts by June 30, 2000. As previously
           discussed, the precise number of LOAs being used for processing transportation
           freight transactions was unknown. The response to the Deputy Secretary of
           Defense request was mixed.
2
    Object Classes are categories in a classification system that represents obligations incurred by the Federal
    Government. The “Transportation of Things” object class are those obligations incurred from goods and
    services associated with the transporting and care of things, including animals.


                                                         5
       Army Response. Although the Army response indicated that it reduced
the number of element of resource codes used, it did not actually reduce the
number of LOAs. The element of resource code identifies the mode of
transportation in the LOA. Because, the Army frequently includes the bill of
lading number in its LOA, a unique LOA is created with each bill of lading
processed. The Army did not identify how many LOAs it previously used or if
any LOAs were reduced by its efforts.

       Navy Response. The Navy responded that it had already reduced the
number of LOAs as much as possible. The Navy uses 16 LOAs for its centrally
managed transportation, which represents 72 percent of its transportation cost. It
uses an additional 674 LOAs for its remaining 28 percent of transportation costs
that were supported by decentralized funds. The Navy continued to use
Transportation Account Codes to provide detailed information about its shipments.

         Air Force Response. The Air Force reduced its transportation element of
expense or investment code, which identifies the mode of transportation used. The
Air Force was not able to specify how many LOAs it previously used but estimated
that it reduced the number of LOAs to between 2,000 and 3,000 for transportation
freight shipments.

       Defense Logistics Agency Response. Prior to the tasking by the Deputy
Secretary of Defense, the Defense Logistics Agency, Defense Distribution Center,
had reduced its transportation freight LOAs from 150 to 29.

The Under Secretary of Defense (Comptroller) officials recognized that sufficient
progress had not been made by the Components and believed that additional time
was needed to allow implementation of the process change. The Under Secretary
of Defense (Comptroller) needs to ensure that the requirement to reduce the
number of transportation LOAs is met.

PowerTrack® Efficiencies. The DoD reengineering effort did not take full
advantage of the automated efficiencies achievable with the PowerTrack® service.
Processing responsibilities were shifted from DFAS to the Transportation Officer,
Funds Manager, and the PowerTrack® service. PowerTrack® automates carrier
payments, aggregates them by LOA, and electronically bills DoD by aggregated
LOA. DFAS then reimburses U.S. Bank. DFAS projects that it would reduce
the number of payments processed from 1.25 million to 108,000 annually. Based
on DFAS FY 2001 billing rates, the Components would decrease its processing
costs for transportation freight invoices by approximately $34 million that is
attributable to aggregating the LOA for payment. See Table 2 below.

    Table 2. Comparison of Invoice Processing Costs Incurred

                                        Projected      Billing Rate    Processing
                                        FY 2001             per           Costs
        Transaction                     Payments        Payment*        Incurred
    Individual bills (GBLs)            1,250,000         $28.78       $35,975,000
    Aggregated bills through
      PowerTrack® (CBLs)             108,000             $17.88         1,931,040
     Projected Annual Cost Reduction                                  $34,043,960

    * The rate represents the amount DFAS will bill its customers to process the
    invoice. The DFAS billing rate includes its costs to certify the invoice and
    reconcile problem disbursements in addition to invoice payment.


                                           6
The cost reduction estimate is misleading because what DoD has effectively done is
shift a major portion of the DFAS processing responsibilities and processing cost to
other DoD offices that must continue to reconcile and account for the 1.25 million
individual transactions processed. In PowerTrack, the Transportation Officer takes on
additional payment responsibilities, such as, approve carrier invoice for payment,
reconcile the individual shipments to a monthly U.S. Bank invoice, and certify the
invoice for payment. These functions were all previously performed by DFAS and
may require a Transportation Officer (that is, Certifying Officer) to interface with
individual Funds Managers and Service representatives because access to financial
data is needed. Therefore, the projected cost reduction associated with processing the
PowerTrack® aggregate billings may only be realized at the DFAS payment level.
The processing costs will continue, if not escalate, at the individual transaction level
because with the current inefficient accounting procedures, several DoD offices are
needed to support the automated transportation payment process. The Assistant
Deputy Under Secretary of Defense (Transportation Policy) believes that the
additional efficiencies or improved management information obtained through
PowerTrack® has other cost benefits associated with it. Although not quantifiable,
these benefits should also be considered when computing the expected cost reduction
associated with PowerTrack®.

        Transportation Officer Responsibilities for Processing Bills Through
PowerTrack®. Under reengineered transportation freight payment procedures, the
Transportation Officer will perform several functions previously performed by DFAS.
Currently, the Transportation Officer individually reviews the carrier invoices in
PowerTrack® and approves invoices for payment, after which U.S. Bank electronically
pays the carrier invoices. When AutoApproval procedures are fully implemented, the
DoD goal is to have 95 percent of all carrier payment transactions approved and paid
through AutoApproval procedures within 3 days. AutoApproval procedures allow
carrier invoices to be automatically paid by U.S. Bank without prior review or
approval by the Transportation Officer. In both scenarios, PowerTrack® generates an
electronic monthly billing statement containing paid carrier invoices aggregated by
LOA. The Transportation Officer will retrieve the monthly billing statement in
PowerTrack® and certify the statement that both shipments and LOAs are valid and
appropriate for payment.

Ensure Accurate Billing Statements. To ensure that the billing statement is
correct, the Transportation Officer manually reconciles the individual shipments to
the monthly billing statement and attempts to reconcile and validate each LOA
before forwarding the certified monthly billing statement to DFAS for payment.
At DFAS Indianapolis, the individual shipping documents were also required for
payment to supplement the certified monthly billing statement because the certified
monthly billing statement could not be reconciled with the detailed PowerTrack®
statement. Subsequent to the audit, DFAS Indianapolis stated that PowerTrack®
had been upgraded to support the reconciliation of monthly statement and that
individual shipping documents were not required for proper payment. In addition,
DFAS did not have appropriate appointment letters and signature cards on file as
required by DoD Financial Management Regulations.

Transportation Officer Certification Responsibilities. Under PowerTrack®
reengineered transportation freight payment procedures, Transportation Officers
are required to certify the monthly billing statements. The certification process
was previously done by DFAS and required reconciliation and validation of LOAs
to verify that the billing statement was correct. We reviewed 19 monthly billing
statements containing approximately 10,000 shipping documents and approximately

                                      7
400 LOAs. Over a quarter of the LOAs processed required corrections before
certification. The certification process is time consuming and complex. For
example, each monthly billing statement contains a summary statement and a
detailed billing statement. The summary statement provides the cumulative total
costs associated with each LOA. The detailed billing statement is organized
chronologically by carrier paid date and provides details of each individual
shipment processed. Those two documents do not provide enough information to
validate and reconcile the monthly billing statement. Thus, the Funds Manager
Report and individual shipping documents are also needed. Several Certifying
Officers interviewed were not aware of the Funds Manager Report and thus did not
use it as a reconciliation tool. Validating and reconciling the LOA on the monthly
billing statement to the individual shipping documents are an administrative
burden. Subsequent to our field work, upgrades were made to PowerTrack® to
facilitate the reconciliation process.

Certification of Other DoD Components' Funds. Additional problems arose when
the transportation office attempted to certify shipments funded by another DoD
Component. Some Transportation Offices only certified the LOAs that belonged to
their installation while other Transportation Offices certified the entire monthly
billing statement without ensuring the validity of the LOAs processed for others.
Both processes resulted in a backlog of unpaid billing statements and associated late
payment charges. The short-term solution was to establish alternate LOAs to use for
payment purposes. The alternate LOAs should have expedited the payment of
monthly billing statements. However, after payment, the Transportation Officers
and Funds Managers still needed to reconcile the problem LOAs and distribute
charges to the appropriate LOA. The proposed long-term solution was to implement
comprehensive front-end edits (automated LOA conversion capability) to preclude
invalid LOAs from being processed through PowerTrack®.

LOA Conversion Capability. The DoD attempted to insert an automated LOA
conversion capability between PowerTrack® and DoD users to provide a standard
format and to verify that only accurate and valid LOAs were used to process
shipments. PowerTrack® functionality did not include an LOA verification because
it did not need LOAs to pay carriers or to bill DoD for reimbursement. Likewise,
DoD did not need all of the detailed information in an LOA to comply with fiscal
requirements to properly account for and report on its use of transportation funds.
The transportation LOA is largely a management information tool. The complex
and costly effort being undertaken to insert and maintain an LOA conversion
capability between DoD users and PowerTrack® is not the appropriate action to
resolve problem LOAs. The LOA conversion would not resolve the root cause of
the payment and accounting problem or simplify appropriations and budget control
functions, it would not alleviate the need to process thousands of LOAs, and it
would not reduce the overhead cost being incurred to track and report on less than
one percent of the DoD budget. It would simply add another layer of cost and
complexity to transportation freight operations and prevent DoD from fully
realizing the reengineering opportunity at hand.




                                     8
Current Business Practices
          The transportation freight operations management and accounting business
          practices would result in DoD:

                  •   continuing to incur similar labor costs to process transportation
                      payments (the revised costs are unknown but estimated at approximately
                      $35.9 million annually) as before implementation of PowerTrack®,

                  •   unnecessarily incurring late payment charges, and creating unmatched
                      disbursements, and

                  •   increasing the risk of violating public law as it attempts to annually
                      distribute $1 billion of transportation costs to more than 13,000 LOAs.

          Processing Cost. The DoD strategy for processing transportation freight payments
          through PowerTrack® was complex and costly. It required training the staff in more
          than 500 Transportation Offices to execute accounting functions that a staff of DFAS
          technicians accomplished in the past. The DoD strategy depended on a system of
          LOAs that could not produce reliable management and accounting data with which to
          measure program effectiveness or make management decisions. PowerTrack® enabled
          DoD to reduce the time required to pay carriers (from 60 days to 3 days) and to
          provide transportation data used in management decisions. Yet DoD was unable to
          certify and pay U.S. Bank in a timely manner to avoid incurring late payment
          charges. In FY 2000, DoD had on average $8 million in overdue payments, some
          more than 165 days old. Unlike private industry, DoD managed and accounted for
          transportation payments at the lowest possible administrative level rather than as
          overhead expenses. If the cost to have three organizational entities (the
          Transportation Offices, Funds Managers, and DFAS) process payments for DoD
          transportation freight shipments does not exceed the DFAS billing rate, processing
          one LOA in FY 2001 would cost DoD an estimated $17.88.

          Private Industry. Private industry, on the other hand, largely treats transportation
          expenses as overhead and allocates them accordingly, resulting in a
          $3 non-accounting processing cost per shipment.3 If DoD adopted the commercial
          practice of accounting for transportation costs at the corporate level, it could
          substantially reduce its costs. Although DoD could continue to incur some
          unknown non-accounting cost to process the transactions, it could conservatively
          avoid approximately $34 million in accounting costs and late payment charges per
          year.

          Late Payment Charges. Invalid and unfunded LOAs hamper the ability of DoD to
          consistently meet contractual agreements with U.S. Bank to avoid late payment
          charges. DoD contractually agreed to reimburse U.S. Bank for payments made to
          carriers on its behalf within 15 days of the date of the invoice or to pay a late
          payment charge equal to the Prompt Payment Act interest rate (6.75 percent at the
          time of the audit). From October 1998 through July 2000, it took DoD an average
          of 46 days to make transportation payments using the PowerTrack® service.
          Although this represents a 25 percent improvement from the 60-day average needed
          to pay carriers before using PowerTrack®, it is still only a marginal improvement
3
    Coopers & Lybrand L.L.P., Report of the DoD Reengineering Task Forced: Reengineering
    Transportation Documentation and Financial Processes, 'As Is' Phase, March 1998


                                                   9
considering the prompt payment agreement of 15 days. During the first 9 months of
calendar year 2000, DoD incurred approximately $400,000 in late payment charges.

                          (Jan u ary 2000 - S ep temb er 2000)

            $157,681

                       $92,355
                                 $67,594
                                                $43,449
                                                          $16,643   $13,874

               15        45        75        105            135       165
                                    Days Past Due

Figure 1. Late Payment Charges Incurred on Past Due PowerTrack® Balances
Almost 36 percent of the late payments were at least 75 days past due. DoD
needs to adopt efficient and effective payment procedures to meet the aggressive
15 days payment schedule and to avoid late payment charges. Instead, DoD
planned to use alternate LOAs as an interim solution to expedite payments.

Subsequent to completion of audit verification efforts, the Assistant Deputy Under
Secretary of Defense (Transportation Policy) said that payment to U.S. Bank had
improved. In August 2000, delinquent monthly billing statements were paid,
including approximately $218,000 of interest. In September and October,
approximately $30,000 and $55,000 of interest were paid, respectively. The
Assistant Deputy Under Secretary of Defense (Transportation Policy) was working
with DFAS and the Services to reduce the time to make payments. Some of the
problems included bad or unfunded LOAs or missing monthly bank statements.
DFAS began using the alternate LOA for the November 16, 2000, monthly bank
statement, which the Assistant Deputy Under Secretary of Defense (Transportation
Policy) believes will improve the timeliness of payments.

Alternate Lines of Accounting. The Deputy Secretary of Defense issued a
memorandum on May 5, 2000, tasking DoD Components to identify alternate
LOAs and obligate sufficient funds to process transportation freight payments.
DoD intended to fund and use the LOAs to process problem disbursements
involving invalid or unfunded LOAs. The intent was to use the alternate LOAs to
expedite the payment process, not to reengineer it. The Assistant Deputy Under
Secretary of Defense (Transportation Policy) reported that each Service had
established alternate LOAs.

        Use of Alternate LOA. According to the Deputy Secretary’s
memorandum, when an inaccurate LOA is not corrected within 2 days, DFAS is to
pay the invoice citing the respective DoD Component alternate LOA. The
transaction would then be treated similarly to an unmatched disbursement. The
DoD Component is responsible for liquidating the alternate LOA by identifying and
transferring the cost to the correct LOA. If the LOA was not sufficiently funded,
the Funds Manager would obligate the needed funds. In a subsequent
memorandum issued December 11, 2000, the number of days allowed before an
alternate LOA is assigned was increased from 2 days to 3 days in an attempt to
reduce the amount of rework needed to reassign the alternate LOA.

        Risks of Alternate LOA. At least two risks are envisioned with the use of
alternate LOAs. If an obligation is created when the shipment occurs, and another


                                           10
    is used to pay for the shipment, DoD will have effectively created a dual obligation
    for the transaction, which does not support funds management goals. On the other
    hand, incurring a liability without an accompanying obligation risks violating
    public law. Although we fully support the use of corporate-level LOAs for
    transportation freight budget and accounting purposes, the proposed method of
    using alternate LOAs is not the optimum solution to problem disbursements.

    Problem Disbursements. Problem disbursements are a growing concern for the
    transportation community. Of the LOAs submitted to DFAS in July 2000,
    45 percent were inadequate to effect payment. When DFAS cites alternate LOAs
    to pay transportation charges, the Transportation Officer is supposed to treat them
    as problem disbursements and reconcile them with original obligations, which is an
    unrealistic expectation. Even if Transportation Officers could have reconciled their
    own transactions, they did not have access to obligations for shipments they
    processed for other entities; therefore, they could not verify the accuracy of those
    LOAs. In addition, the Prompt Payment Act, funds management, and accounting
    were not core Transportation Officer functions or priorities. Furthermore, neither
    Transportation Officers nor Funds Managers have visibility over inaccurate LOAs.
    These assessments were evident in the 45 percent error rate of LOAs submitted to
    DFAS for payment after attempted verification by the transportation community.
    Even with the pressure to pay billing statements or incur late payment charges, it
    was taking DoD an average of 46 days to pay U.S. Bank.

    Reconciling Problem Disbursements. We believe that reconciling problem
    disbursements would be less urgent after U.S. Bank has been paid. As a result, the
    number of unresolved problem disbursements will increase. In addition,
    transportation freight payment procedures did not accomplish prevalidation
    objectives and significantly increased the risk of pecuniary liability for the
    Transportation Officer who certified the invoice.

    Prevalidation Requirements. Transportation freight payment procedures did not
    accomplish the DoD prevalidation objectives established in response to Section 8137
    of Public Law 103-335, “DoD Appropriations Act 1995.” The Act requires DoD to
    develop and implement a plan to match disbursements to corresponding obligations.
    DoD plans called for accomplishing this at the zero dollar threshold for all
    disbursements, except contract payments made by the DFAS Columbus. Although
    DFAS was attempting to comply with the DoD prevalidation initiative, it was
    frequently unable to do so because of pervasive accounting errors. In FY 2000, DoD
    maintained a monthly average of $8 million of transportation payments that were past
    due because of obligation and accounting data problems. As the number of
    transactions processed through PowerTrack® increases, DFAS would be forced to pay
    transportation payments without prevalidating them or incur increasing late payment
    charges. Such payments will result in an increased number of problem disbursements.

Corporate Approach
    Centrally managed LOAs are essential to successfully reengineering transportation
    freight operations. Best commercial practices support treating transportation as a
    corporate expense for accounting purposes. MRM No. 15 challenged managers to
    update and restructure business practices consistent with statutory and technological
    constraints. DoD has taken sweeping steps to automate transportation freight
    payments. However, the complexity of the current approach to account for those
    payments creates an undue administrative burden on the transportation community

                                         11
    and denies DoD the optimum benefits of reengineering. We believe that DoD is
    pursuing the right course in establishing alternate LOAs to process transportation
    payments for problem disbursements. However, we do not believe that the
    alternate LOAs should be the exception and reserved only for problem
    disbursements. The DoD Components should establish centrally managed open
    allotments for all DoD transportation freight payments.

    Use of Centrally Managed Open Allotments. The use of centrally managed open
    allotments with operating targets at the Department level would enable DoD to
    minimize its growing number of problem disbursements, eliminate late payment
    charges, prevent potential violations of public law, produce reliable metrics to
    measure program effectiveness, and eliminate costly detailed management and
    accounting procedures. Recent congressional testimony also identified the need for
    DoD to simplify its data documentation requirements to take advantage of
    electronic commerce with commercial systems. The use of open allotments will
    make possible the seamless, paperless process for paying transportation freight bills
    through vendor pay systems that DoD is trying to achieve.

Summary
    The ongoing transportation reengineering effort provides a significant opportunity
    for DoD to avoid unnecessary administrative burdens associated with transportation
    freight shipments and avoid additional cost and to produce meaningful metrics with
    which to measure program effectiveness. PowerTrack®, the cornerstone of the
    DoD reengineering effort, is automating and expediting vendor payments, but
    internal DoD business practices are negating those benefits. By using an up-front
    LOA conversion system without further reengineering its business practice, DoD
    would be perpetuating inefficiencies that will result in additional processing costs,
    unnecessary late payment charges, and unmatched disbursements. The transition to
    automated carrier payments was a step in the right direction, but relying on
    PowerTrack® alone falls short of reengineering DoD transportation payment
    processes. Centrally managed open allotments with targets at the operating level,
    coupled with the automated carrier payment service, would provide DoD with an
    electronic commerce capability that attains the objectives of MRM No. 15 and
    realizes the optimal benefits of reengineering.

Recommendation, Management Comments, and Audit Response
    A. We recommend that the Under Secretary of Defense (Comptroller) require
    the Defense Components to establish and fund open transportation allotments
    for budget and accounting purposes, and limit transportation lines of
    accounting to the Defense Component level to avoid late payment charges and
    problem disbursements and support the DoD prevalidation initiative.

    Management Comments. The Deputy Chief Financial Officer, Under Secretary
    of Defense (Comptroller) nonconcurred with the recommendation and stated that
    the use of open allotments are problematic and prone to misuse because the
    managers using the funds are not responsible for programming and budgeting the
    funds. Transportation costs are accumulated by high volume, low dollar value
    transactions and are better managed by those organizations that incur the costs. In
    May 2000, the Under Secretary of Defense (Comptroller) required the DoD
    Components to establish alternate lines of accounting. The LOA is used to convey

                                         12
management information to the Components Funds Manager and it was not
unreasonable to allow additional time for the Components to change business
processes before significant reductions in the number of LOAs could be expected.

Audit Response. Deputy Chief Financial Officer, Under Secretary of Defense
(Comptroller) comments were nonresponsive. The current organization structure
effectively segregates duties and supervision with respect to rating shipments. If
open allotments were prone to misuse as stated, the DoD should revise its current
practices for managing billions of dollars in appropriations. For example, the DoD
open allotments for military pay are valued at about $73 billion in contrast to the
$1 billion in transportation payments processed through PowerTrack. Currently,
the Army manages its overseas shipments through the open allotment process.

In most situations, the transportation office is responsible for processing, not for
rating the shipments or programming or budgeting the funds associated with the
shipments. The transportation office is a support function, independent of the
program and Funds Manager. The current fund management practice does not
provide effective controls for promptly recording, properly accounting, and
accurately preparing reliable financial and management reports.
Seventy-three percent of the LOAs processed during a 14-month period reviewed
were inadequate to effect payment and required reconciliation. The
implementation of PowerTrack® has improved the Department’s response time to
pay the carrier but marginal improvement has been shown in completing the
transaction and obtaining complete and accurate accounting and management cost
information. Where alternate LOAs are now used, their monthly volume has
increased and represents problem disbursements that must be either researched and
reworked or left to stand as duplicate obligations. This effectively then becomes a
transportation open allotment, by default.

Management comments also imply that the Transportation Officers will not act in
the best interest of the Department. The Transportation Officer’s main
responsibility is to ensure that the shipment is transported effectively and
efficiently. The majority of surface freight shipment rates are not set by the
Transportation Officer but are negotiated and contracted by the Military Traffic
Management Command. The Transportation Officer should not be encumbered by
overly complex accounting requirements. By using open transportation allotments
and limiting transportation LOAs, transportation costs can be managed effectively
and efficiently as overhead, processing costs can be reduced, and management cost
data can be captured through PowerTrack®.

The Deputy Chief Financial Officer, Under Secretary of Defense (Comptroller)
believes that “a reasonable amount of time must be allowed to implement the
necessary process changes” before alternative actions are appropriate. Over a year
has passed since the Deputy Secretary of Defense requested a reduction of LOAs
and minimal change has occurred. The Under Secretary of Defense (Comptroller)
has yet to assume a leadership role by analyzing required LOAs, clearly defining
reduction targets, and initiating corrective actions where progress is not apparent.
Further, the Deputy Chief Financial Officer, Under Secretary of Defense
(Comptroller) also declined to specify how many years delay is reasonable before
positive corrective actions should be taken. Therefore, we request the Under
Secretary of Defense (Comptroller) reconsider the recommendation and provide
additional comments to this report.



                                     13
           B. Controls Over Automated Transportation
              Payments
           Although the automated transportation payment process is an improvement
           over the manual process, controls over these automated transportation
           payments were not adequate to safeguard sensitive financial information or
           to ensure production of reliable data. DoD had not fully assessed system
           risks, resolved system vulnerabilities, and included basic internal controls in
           the automated payment process. As a result, DoD reengineering efforts
           contain high risk of exposing sensitive financial data to unauthorized
           parties, risk noncompliance with public laws and regulations, promote
           operating in a business environment lacking strong management controls,
           and require Transportation Officers to assume responsibilities and
           associated liabilities more appropriately belonging to the financial
           community.

Controls
    General Accounting Office (GAO) Publication, GAO/AIMD-00-21.3.1, “Standards
    for Internal Control in the Federal Government,” November 1999, provides the
    framework for obtaining reasonable assurance that operations are effective and
    efficient, produce reliable data, and comply with applicable laws and regulations.
    These standards are based, in part, on section 3512, title 31, United States Code
    (31 U.S.C. 3512), and the Computer Security Act of 1987, as well as OMB and DoD
    implementing regulations. The controls specified in the standards are the policies and
    procedures that enforce management’s directives. These controls are critical to
    ensuring the integrity and reliability of data used by financial managers and relied on
    for the preparation of DoD financial statements and reports. Critical fundamental
    controls include identifying, analyzing, and managing relevant operational risks,
    segregation of duties, and restrictions to and accountability for resources and records.

    Effectiveness of Controls. DoD had not established an effective system of
    management controls over its transportation freight payment process.
    PowerTrack® was integrated into the transportation payment process without a
    system accreditation. System vulnerabilities and risks had not been fully identified
    or assessed. PowerTrack® was also being incorporated into the DoD transportation
    payment process without full consideration of the overarching DoD architecture.
    Responsibility for the implementation and operation of the automated payment
    process was not clearly delegated or coordinated. As a result, DoD was processing
    its transportation freight payments through PowerTrack® without adequate system
    and management control measures to ensure that sensitive data and DoD financial
    management systems were safeguarded and that the system produced reliable data
    for financial statement reporting. The Federal Financial Management Improvement
    Act of 1996 (FFMIA) mandates that financial management systems comply
    substantially with financial management system requirements, Federal accounting
    standards, and the United States Government Standard General Ledger at the
    transaction level. A brief synopsis of the criteria is available in Appendix D.

    Financial Management Systems Security Requirements. DoD Directive 5200.28,
    “Security Requirements for Automated Information Systems,” March 21, 1988,
    implements the requirements of OMB Circular No. A-130, “Management of Federal


                                         14
Information Resources.” The established criteria require that the automated
information systems safeguard information against tampering, loss, and destruction.
Automated information systems are defined as an assembly of computer hardware,
software, firmware, or some combination of the three, configured to collect, create,
communicate, compute, disseminate, process, store, or control data or information
and includes application and operating system software. The DoD Directive states
that the Head of each Component shall assign official(s) as the Designated
Approving Authority responsible for accrediting each automated information system
and for ensuring compliance with automated information systems security
requirements. The accreditation is the formal approval given by the Designated
Approving Authority to operate the system. DoD Instruction 5200.40, “DoD
Information Technology Security Certification and Accreditation Process,”
implements the security requirements identified in Public Law 100-235, “Computer
Security Act of 1987,” OMB Circular No. A-130, and DoD Directive 5200.28. It
prescribes procedures for the certification and accreditation process.

Mobile Code Policy Guidance. The Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) issued policy guidance for the use of
mobile code technologies in DoD information systems on November 7, 2000. The
draft guidance had been available since December 13, 1999. The policy applies to
all DoD information systems used to process, transmit, store, or display DoD
information and specifically includes commercial off-the-shelf software and
electronic commerce applications used but not owned by the Government. Mobile
code (that is, ActiveX) is software transferred across a network from a remote
system (that is, PowerTrack®) executed on a local system (that is, Transportation
Officers’ computers). The execution of mobile code is done without explicit
approval or knowledge by the recipient. The policy defines ActiveX as “Category
One” mobile code. Category One mobile code technologies pose a severe threat
to DoD operations because they allow unmitigated access to all resources on the
recipient's workstation, host, and remote system services and resources. The
policy states that Category One mobile code is to be used in DoD information
systems only when the mobile code is signed by a DoD-approved Public Key
Infrastructure code-signing certificate and obtained from a trusted source. Until a
DoD-approved Public Key Infrastructure code-signing certificate is available, the
Chief Information Officer may approve alternate commercially available
code-signing certificates. Therefore, we believe that DoD needs to:

       •   disable the downloading and execution of all mobile code on DoD local
           systems that is not operating in accordance with DoD policy, and

       •   ensure that ActiveX mobile code used in PowerTrack® is replaced with
           mobile code that is in accordance with DoD policy.

Results of Defense Information System Agency Security Test and Evaluation
Review. In the early stages of PowerTrack® implementation, the MRM No. 15
Program Management Office asked the Defense Information System Agency (DISA)
to conduct a Security Test and Evaluation (ST&E) of the PowerTrack® client and
end-user application controls to identify associated security features and risks. The
ST&E is one of eight tasks within the DoD Instruction 5200.40, “DoD Information
Technology Security Certification and Accreditation Process” (DITSCAP), validation
phase used to certify the integration and operation of system security features. On
January 31, 2000, DISA issued the results of its ST&E, and could not give
PowerTrack® an approval to operate within DoD because of major concerns


                                     15
uncovered during the ST&E. The DISA ST&E identified 18 security vulnerabilities
and raised 8 significant issues for management attention. Because the ST&E is only
a part of the system security assessment, DISA also recommended that a complete
system security assessment be conducted including the testing of PowerTrack's®
infrastructure and servers or evidence that such testing was conducted. DISA
identified the following security issues during its ST&E review.

       •   ActiveX Mobile Code. PowerTrack® uses ActiveX technology that has
           been identified by DoD as a risk Category One. According to DISA,
           Category One technologies have known security vulnerabilities with few
           or no countermeasures once the mobile code begins executing. ActiveX
           mobile code has the potential to severely degrade DoD systems. The
           high risk of using Category One technologies outweighs all possible
           gains. The May 11, 2000, Under Secretary of Defense for Acquisition,
           Technology, and Logistics memorandum, states that U.S. Bank was
           going to remove ActiveX mobile code from PowerTrack® by
           December 2000. In response, the Assistant Secretary of Defense
           (Command, Control, Communications, and Intelligence) issued a waiver
           allowing the use of ActiveX mobile code to process transportation
           freight payment transactions. As of January 2001, ActiveX continues to
           operate through PowerTrack® in DoD systems.

       •   Windows 95 and Windows 98 platforms. DISA did not recommend
           using PowerTrack with Windows 95 or Windows 98 platforms because
           of their inherent security weaknesses. The identity of each user
           authorized access to PowerTrack® should be established positively
           before authorizing access. Windows 95 and Windows 98 access
           controls can be easily bypassed. Although these weaknesses may be
           mitigated by procedural and personnel access controls, in combination
           with other weaknesses, the use of Windows 95 and Windows 98
           platforms pose sufficient concerns so that DISA recommended these
           platforms not be used.

       •   User Identifications and Passwords. DISA reported that the history
           mechanism of Internet Explorer 5.0 (used with PowerTrack®) stores
           unencrypted user identification and passwords on the user's personal
           computer where it can be accessed and read by unauthorized persons.

       •   Information System Personnel. DISA stated that an Information
           System Security Officer had not been identified or designated
           responsibility for overseeing PowerTrack® as required by the provisions
           of DoD Directive 5200.28. DoD Directive 5200.28 states that the
           Designated Approving Authority, who is responsible for overseeing
           PowerTrack®, will assign the Information System Security Officers.
           The Under Secretary of Defense for Acquisition, Technology, and
           Logistics needs to appoint a Designated Approving Authority for
           PowerTrack®.

       •   User Profiles. Users are able to set up their own organization profiles
           in PowerTrack®. Unrestricted access to PowerTrack® user profiles
           allows establishment of inappropriate carrier profiles and business rules
           regarding carrier payment approval. Such access allows for potential
           collusion between user and carrier that could result in financial loss.


                                     16
Office of the Secretary of Defense Position on DITSCAP Applicability to
PowerTrack®. We commend Assistant Deputy Under Secretary of Defense
(Transportation Policy) for obtaining an interpretation of the DoD Instruction 5200.40,
commonly referred to as DITSCAP, applicability to PowerTrack®. The August 30,
2000, Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) response advises that DITSCAP certification and accreditation of
PowerTrack® were not required because DoD did not own the software rights to the
application. However, the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) directed that the impact of PowerTrack®
implementation on DoD network information assurance be understood. In addition, he
advised that an amendment to the local base level System Security Accreditation
Agreement was necessary and follows in Phase 4 of DITSCAP. Consequently, the
Assistant Deputy Under Secretary of Defense (Transportation Policy) did not consider
DITSCAP applicable and continued to aggressively implement PowerTrack® without
fully assessing the impact on DoD network information assurance or addressing the
reported security risks or conducting additional tests as recommended by DISA. Since
the ST&E, the office of the Assistant Deputy Under Secretary of Defense
(Transportation Policy) has continued to push towards full implementation of
PowerTrack® at all DoD shipper sites. In addition, transportation regulations have
been updated and require that DoD only contract with commercial carriers who
conduct business through PowerTrack®. Thus, DoD commercial freight carriers are
required to be PowerTrack® capable within 6 months of the transportation office
becoming PowerTrack® enabled.

Office of Inspector General, DoD Position on DITSCAP Applicability to
PowerTrack®. Based on our review of the automated payment process and
subsequent discussions with the Office of the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence), we believe that system
security requirements outlined in DoD Directive 5200.28 and implemented in DoD
Instruction 5200.40 are applicable to PowerTrack®. The guidance states that its
provisions apply to all automated information systems that collect, communicate,
store, or control data, to include application software. PowerTrack® is an electronic
commerce application that is an integral part of the DoD reengineered transportation
payment process. In addition, DoD transportation data will reside within
PowerTrack® and will be used and relied on in making payments to carriers and
U.S. Bank. In the absence of more specific implementing guidance, DITSCAP is the
most comprehensive guidance available to ensure that DoD interests and assets are
protected. It would be prudent to fully assess the risks to the transportation payment
data, commercial carriers, and DoD infrastructure before approval to operate any
system, including commercial off-the-shelf products and electronic commerce
applications not owned by the Government. All vulnerabilities should be identified
and risks mitigated prior to integration. PowerTrack® represents a new process for
doing business. The Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) had not fully assessed the impact of using an
electronic commerce application not owned by the Government on the DoD operating
environment and DoD data. In effect, new or revised policy guidance is needed to
clarify management's responsibility with respect to all DoD information systems used
to process, transmit, store, or display DoD information. The guidance should
specifically address commercial off-the-shelf products and electronic commerce
applications not owned by the Government. In addition, standard contracting language
is needed for all electronic commerce application contracts that specifies the
responsibilities for ensuring compliance with established system security and
management control requirements.


                                       17
System Security. The Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) had not fully assessed the impact of
this new business process on the DoD infrastructure. As a result, DoD risks
unauthorized access to sensitive financial data and noncompliance with public
laws and regulations. Figure 2 shows the relationship between the DoD
infrastructure and the U.S. Bank PowerTrack® service.
               DoD Infrastructure                          U.S. Bank

                     Accounting
                      System*                             PowerTrack




           Shipper                             INTERNET    DoD Data
                                 NIPRNET
           System



                     Client PC



            *Indicates future implementation


Figure 2. Systems Relationship

Access Controls. The willingness of trading partners to transact business with
DoD via the Internet will decline if all parties are not assured that confidential
information, such as vendor bank account numbers, will remain confidential.
To protect and authenticate electronic payment transactions made via the
Internet and data within PowerTrack®, DoD needs to immediately implement a
Public Key Infrastructure or digital signature and encryption capabilities.
Federal Information Protection Standards established levels of Public Key
Infrastructure security. Accordingly, the GAO determined that Federal
Information Protection Standard 228 level 2 protection is appropriate for DoD
financial management systems. Digital signatures and encryption capabilities
are widely used methods of improving system security because they allow
DoD to ensure that:

       •   data contained in electronic transactions and messages have not been
           altered and can be fully relied on for financial statement purposes,

       •   system users can confirm who is on the other end of an electronic
           transaction,

       •   parties involved in a transaction cannot later deny that they participated
           in the transaction, and

       •   data cannot be accessed and read without proper authorization.

Given the sensitivity and dollar value of transportation freight data transmitted
over the Internet and the legal, financial, and national security implications of
unauthorized access to or use of that data, DoD should require all PowerTrack®
transactions be encrypted and contain digital signatures.



                                                18
Internal Management Controls
    Fundamental management controls over the processing of PowerTrack® transactions
    were not established or functioning as intended. We identified material control
    weaknesses in the areas of operating guidance, training, approval of payments, and
    payment procedures. Also, PowerTrack® access privileges and appropriate carrier
    invoicing models were not established to ensure effective and efficient operations,
    data reliability, and compliance with applicable laws and regulations.

    Operating Guidance. DoD did not develop adequate operating guidance for
    processing transactions through PowerTrack®. The DoD Transportation Regulation
    is the governing guidance over transportation transactions and payments. The
    regulations were silent with regard to transactions processed through PowerTrack®
    and the additional responsibilities of the Transportation Officers. Although DFAS
    does not have policy jurisdiction over the Transportation Officers or Funds
    Managers, DFAS issued a memorandum, “Interim Manual Operating Procedures
    for Processing PowerTrack® Payments,” June 30, 1999. DFAS issued the guidance
    because no systems electronic interface existed between PowerTrack® and DoD
    payment and accounting systems. Of the 12 sites we visited, only 1 site was aware
    of the DFAS interim guidance.

    Revised Guidance. In April 2000, U.S. Transportation Command revised
    DoD Regulation 4500.9-R, “DoD Transportation Regulation,” and incorporated
    the business rules for processing the commercial freight payments through
    PowerTrack®. The guidance delegated additional responsibility to Transportation
    Officers and Funds Managers. The transportation office is now responsible for the
    approving and certifying functions. The Funds Managers are required to review
    the PowerTrack® Fund Managers Report to confirm that LOAs are properly cited
    and to determine whether corresponding obligations exist. The guidance, however,
    did not provide the necessary instructions to enable these officials to accomplish
    their additional responsibilities or provide procedures for accomplishing those tasks
    in an automated PowerTrack® environment. For example, the guidance is silent on
    how to approve and certify transportation payments in PowerTrack®. In addition,
    the DoD Regulation 4500.9-R tasked Funds Managers over whom they do not have
    cognizance. Fund Manager responsibilities are under the purview of the Under
    Secretary of Defense (Comptroller). DoD Regulation 4500.9-R does not
    adequately reflect the current operating environment for processing transportation
    freight payments. For example, few Fund Managers have access to PowerTrack®
    although they have been assigned specific responsibilities. The financial
    management regulations need to be revised to support the DoD transportation
    regulations as it pertains to Fund Managers and incorporate their responsibilities in
    PowerTrack®. The revised guidance should be fully distributed to all
    transportation offices and Fund Managers.

    Transportation Officer Training. Transportation Officers were not given adequate
    training to properly transact business through PowerTrack®. They received only
    basic PowerTrack® training from U.S. Bank and no finance and accounting training.
    U.S. Bank made overall introduction to PowerTrack® training available to all
    PowerTrack® users. A distance learning package was also created for users who did
    not attend the presentation. However, the PowerTrack® users we interviewed who
    had completed the training did not understand PowerTrack® critical functionality or
    how to use its essential modules and screens. Also, Transportation Officers had not


                                         19
received training in finance and accounting to understand and successfully process
LOAs nor training as a Certifying Officer to prepare them to certify invoices for
payment. For example, the “Business Rules - Invoicing Module,” is critical to
managing the payment process from the Transportation Officer and Fund Manager
perspective. The invoicing module informs the users how carrier transactions will
be processed. Even though Transportation Officers may have known how to access
and complete this module, they did not always understand their options or the laws
and regulations governing their choices. Likewise, Transportation Officers knew
how to access and certify invoices for payment in PowerTrack®, but they were not
aware of the financial or legal implications of their actions. Transportation Officers
and Fund Managers should be trained to ensure that they have a complete
understanding of the functionality of PowerTrack® and the laws and regulations
governing financial transactions.

Fund Manager Training. Fund Managers were not provided PowerTrack
training. Few, if any, Funds Managers had access to PowerTrack  even though
the DoD guidance gives them a critical role in the transportation payment
process. According to the MRM No. 15 Program Management Office, the need
for Funds Manager training was recognized and in August 2000, a financial
management development team was formed. In March 2001, a PowerTrack
web-based training application and CD-ROM became available for Funds
Manager training. However, a requirement was not established for Funds
Managers to receive this training nor were controls established to ensure training
was received.

PowerTrack® Access Privileges. Procedures were not established to ensure
appropriate access and define user privileges in PowerTrack®. The OMB
Circular A-123 requires that basic controls be in place to ensure that access to
resources and records is limited to authorized individuals and accountability for the
custody and use of resources is appropriately assigned and maintained. DoD
Directive 5200.28 also requires that user access to information and operations be
limited to that for which the user is entitled by virtue of clearance and formal
access approval. As of June 2000, approximately 1,600 DoD users had been
granted access to the PowerTrack® system, yet DoD had not established
procedures for granting access or defining user privileges in PowerTrack®.
U.S. Bank controls access to PowerTrack®. Anyone desiring access can contact
U.S. Bank at which point U.S. Bank may or may not confirm their authority with
DoD before allowing them access. Furthermore, DoD does not monitor
PowerTrack® user profiles or activity to ensure appropriate access, privileges, and
use. DoD needs to review, evaluate, and certify PowerTrack® access and
privileges. This has yet to be accomplished. We identified a number of serious
instances where DoD could not ensure the appropriateness of PowerTrack®
transactions.

        Contractor Access. At Wright-Patterson Air Force Base, contractors are
authorized to perform transportation freight shipping functions such as initiating,
rating, and assigning shipments, but not approving payments. However, we
identified a contractor employee who had PowerTrack® approval privileges for
payments up to $25,000. Approval of carrier payments is an inherently
governmental function that can legally be performed only by a Government
employee. We identified five payment transactions totaling $662 that a contractor
had approved by searching the payment history of the individual shipment. The
Transportation Officer was not aware of the access level or privileges assigned to


                                     20
the contractor. U.S. Bank was unable to provide us with a log of payments
approved by the contractor, so we were unable to determine the extent of the
problem.

        Administrator Access. The Information Manager, Blue Grass Army
Depot, had approval authority for payments up to $25,000. The Information
Manager is responsible for system administration and should never have payment
approval authority. In addition, at each transportation office, at least one user was
assigned administrative access to PowerTrack®. The administrative access allowed
users to add, delete, or modify user and carrier profiles within their respective
domain. At several of the sites we visited, administrative users also had maximum
payment approval authority.

        Retiree Access. At the Defense Distribution Depot, Norfolk, a user who
had retired in July 1999 still had an enabled user profile with a $3,000 payment
approval authority as of June 2000.

Carrier Profiles. Similar control problems exist with carrier profiles as with the
user access and privileges. The Transportation Officer or U.S. Bank can establish
carrier profiles in PowerTrack®. Carrier profiles define how transactions will be
processed, as well as how carriers will be paid. Carrier profiles prescribe invoicing
modules and automatic payment options to be used with each carrier.

Controls Over Carrier Profiles. Control over carrier profiles is critical because
they authorize payment based on DoD input, carrier input, or automatic payment.
Yet DoD had not established basic controls over establishing carrier profiles or
ensured that Transportation Officers understood how to create and use them. In
addition, DoD does not monitor carrier profiles to ensure that they are properly
defined in the system. As a result, the Transportation Officer at the Blue Grass
Army Depot did not know that at least three carrier profiles were defined with
unlimited dollar thresholds, which meant that carrier invoices were automatically
approved for payment in PowerTrack® on notice of delivery without further
transportation office involvement. DoD needs to establish and monitor profiles to
maintain an acceptable level of operating security.

Transportation Officer Liabilities. Control procedures over the certification of
PowerTrack invoices were not adequate to ensure segregation of duties as
required by internal control standards. Transportation Officers were provided
neither the training nor the tools to successfully function as Certifying Officers.

Certifying Officer Delegation. In June 1999, the DFAS “Interim Manual
Operating Procedures for Commercial Transportation Purchased Through the U. S.
Bank PowerTrack® Service,” requires Transportation Officers to function in both an
approval and certification capacity contrary to basic principles of internal controls.
GAO publication, GAO/AIMD-00-21.3.1, “Standards for Internal Control in the
Federal Government,” November 1999, prescribes that, “Key duties and
responsibilities need to be divided or segregated among different people to reduce the
risk of error or fraud.” This should include separating the responsibilities for
authorizing transactions, processing and recording them, reviewing the transaction,
and handling any related assets. One individual should not control all key aspects of
a transaction process. Further, as previously discussed, Transportation Officers
have neither sufficient visibility over funding nor were they adequately trained to
conduct Certifying Officer duties. The Certifying Officer responsibilities are


                                     21
specified in 31 U.S.C. 3325 and 3528, which states that the Certifying Officer is
responsible for information stated in the voucher, supporting documentation and
records, computation, and the legality of a proposed payment under the
appropriation or fund involved. The Certifying Officer responsibility is consistently
described in the DoD Financial Management Regulations, Volume 5, Chapter 33,
“Accountable Officials and Certifying Officers.” Thus, the Certifying Officer is
responsible for ensuring and validating that the appropriate funding is available and
used on the PowerTrack® monthly invoice. Procedural guidance was not sufficient
to ensure data accuracy or consistent and efficient processing of PowerTrack 
invoices. Therefore, we consider the delegation of the certification responsibility to
be unacceptable because Transportation Officers are inappropriately exposed to
pecuniary liabilities without due preparation.

Certifying Officer Responsibilities. Each month, the transportation office
obtains a PowerTrack® billing statement aggregated by LOA. The Transportation
Officer is supposed to certify the statement within 5 business days. To
accomplish this, the Transportation Officer must review the billing statement to
ensure that it is correct, certify the statement for payment, and submit it to the
appropriate DFAS office for disbursement. The DoD goal appears to be that
DFAS will disburse funds based on the Transportation Officer's approval, without
further review or certification. Inspector General, DoD, Report No. D2000-139,
“Controls Over the Integrated Accounts Payable System,” June 5, 2000,
identified numerous deficiencies in the Department's procedures for handling
vendor payments. GAO/AIMD-00-21.3.1, “Standards for Internal Control in the
Federal Government,” November 1999, requires access restrictions and
segregation of key duties in authorizing, processing, recording, and reviewing
transactions. The majority of DoD transportation payments are processed using
vendor pay systems. Therefore, the internal control environment for receipt and
acceptance of transportation shipments prescribed by 5 Code of Federal
Regulations Part 1315, “Prompt Pay Act: Final Rule,” must apply and DoD must
ensure that sufficient controls exist so that no single individual is responsible for
the entire transportation freight transaction.

Pecuniary Liabilities. Title 31, U.S.C., 3528, and the DoD Financial
Management Regulation, Volume 5, Chapter 33, section 3302, hold Certifying
Officers pecuniarily liable for erroneous payments. Draft Certifying Officer
business rules delegating certification responsibilities will result in undue risk of
pecuniary liability to DoD Transportation Officers. In 1998, DoD implemented
31 U.S.C. 3325, which requires certification of Departmental disbursements.
Under these regulations, Certifying Officers are considered pecuniarily liable for
erroneous payments resulting from the negligent performance of their duties.
They are responsible for paying payments that are determined to be illegal,
improper, or incorrect because of inaccurate or misleading certification that does
not represent a legal obligation under the appropriation or are prohibited by law.
For most vendor pay actions, DFAS performs Certifying Officer functions. DoD
procedures for reimbursing U.S. Bank for PowerTrack® invoices rely heavily on
the controls in vendor pay systems. Yet DoD is deviating from those controls for
transportation freight payments by recommending that the Military Departments
and Defense agencies appoint Transportation Officers to certify carrier payments.
The Transportation Officers do not have access to the accounting systems and
have no visibility over the supporting obligation data for funding payments,
besides their own. Therefore, they have no ability to validate (or certify) the
validity of other LOAs, but DFAS does.


                                      22
   In July 2000, DFAS reported that 45 percent of the certified PowerTrack® invoices
   were delayed for payment because of missing or inadequate obligations or
   inaccurate and incomplete LOAs. After certification for payment, the Certifying
   Officer should be prepared to assume full liability for all improper payments,
   because the GAO may not provide relief for transportation officials who make
   improper certifications, especially when not initially supported by a valid
   obligation. The use of the Transportation Officer as certifying official is a choice of
   last resort. We believe that transportation payment certification responsibilities
   should be retained by DFAS along with their vendor payment responsibilities to
   ensure total visibility of all payments.

   Certifying Officer Training. The training provided to date was insufficient to
   instruct the Transportation Officers in their roles and responsibilities for
   certifying PowerTrack® invoices. In most cases, officials required to perform
   certification functions were not and could not comply with requirements. At
   the sites visited, we received mixed responses regarding what constitutes
   PowerTrack® invoice certification procedures and responsibilities. This lack of
   understanding made clear that Transportation Officer certifications of
   PowerTrack® invoices were all too often superficial at best. Certifying Officers
   are also required to review Transportation Account Codes and LOAs for
   accuracy prior to certifying invoices, but this was not being done at the sites we
   visited. Furthermore, as previously discussed, Transportation Officers simply
   were not provided the level of training commensurate with the Certifying
   Officer obligations and responsibilities imposed on them. The Certifying
   Officers need to receive Certifying Officer training. According to the Assistant
   Deputy Under Secretary of Defense (Transportation Policy), DFAS developed a
   Certification Officer Legislation Training compact disk. The Military
   Components and Defense agencies provided comments to the training disk in
   November 2000. Once the Component and agency comments are considered,
   the training disk could be used as a training tool for the Certifying Officers.

   Post Payment Random Reviews. Draft Certifying Officer business rules
   provide for post payment random reviews. The intent of a post payment
   review is to ensure payment accuracy and minimize the risk of errors and
   fraud. However, the business rules assign responsibility for the post payment
   random reviews to the same office that has control over the transportation
   freight process. The transportation freight process includes establishing user
   profiles, authorizing shipments, and certifying invoices for payment.
   Furthermore, the business rules did not specify the decision rules or corrective
   actions needed based on the result of the review. Therefore, we question
   whether the reviews will be an effective tool to detect error or fraud unless
   designed and conducted at the DFAS level by individuals who do not have
   control over the transportation freight process.

Summary
   Although PowerTrack® is a commercially owned electronic commerce
   application, it is incorporated into the DoD transportation payment process.
   PowerTrack® processes, stores, transmits, and displays sensitive DoD financial
   information and contractor proprietary data. The PowerTrack® data are used by
   DoD to pay the carrier and to reimburse U.S. Bank. Therefore, PowerTrack®
   should comply with the same provisions as other DoD financial management


                                         23
    systems. The Federal Financial Management Improvement Act and supplemental
    OMB and DoD guidance are applicable to PowerTrack®. Controls over the
    automated transportation freight payment process were not adequate to safeguard
    sensitive information or to ensure the production of reliable data. DoD must
    fully assess and mitigate the risks associated with using the PowerTrack® service.
    Continuing to operate without effective security and internal controls is
    imprudent. Likewise, DoD efforts to expedite an implementation strategy that
    circumvents prescribed management controls and places DoD employees at
    unneeded risk is not in the best interest of the Department. Delegated
    certification authority inappropriately exposed Transportation Officers to
    pecuniary liabilities. Also, Transportation Officers were inadequately trained to
    accomplish Certifying Officer responsibilities. All too often PowerTrack®
    invoice certifications were superficial at best. Lastly, we do not believe the post
    payment random reviews as structured will be effective deterrents to error or
    fraud unless designed and conducted at the DFAS level by individuals who do
    not have control over the entire transportation freight payment process.

Recommendations, Management Comments, and Audit Response
    Deleted and Renumbered Recommendations. As a result of the comments, we
    revised Recommendation B.1.a. to incorporate the intent behind draft report
    Recommendations B.1.b. and B.1.c. We deleted draft report
    Recommendations B.1.b. and B.1.c. and renumbered the remaining
    recommendation to Recommendation B.1.b.

    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Appoint an executive agent to take responsibility for operation of
    PowerTrack® within DoD and to ensure that all control risks associated with
    its use are understood and mitigation of risks are planned and PowerTrack® is
    compliant will all applicable DoD policies.

          b. Contract with U.S. Bank to phase out the use of ActiveX or use
    ActiveX in accordance with DoD policy.

    Management Comments. The Assistant Deputy Under Secretary of Defense
    (Transportation Policy) nonconcurred with the Recommendations B.1.a., B.1.b.,
    and B.1.c., stating that the recommendations propose a bureaucratic process for
    assessing the security implications of a commercial off-the-shelf application.
    PowerTrack® is a commercial off-the-shelf web-based application and DoD has no
    software rights to this application. As such, DoD Information Technology
    Security Certification and Accreditation Process (DITSCAP) requirements do not
    apply. The Assistant Deputy Under Secretary of Defense (Transportation Policy)
    agreed that DoD needs and would strongly support an effective commercial off-
    the-shelf assessment policy to ensure security of DoD systems.

    The Assistant Deputy Under Secretary of Defense (Transportation Policy)
    concurred with Recommendation B.1.b., stating that it complies with DoD policy.
    On April 12, 2001, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued a memorandum that stated the use of



                                         24
ActiveX in PowerTrack® complies with DoD policy because ActiveX is signed
with Microsoft Authenticode, an approved commercial code-signing certificate.

Audit Response. The Assistant Deputy Under Secretary of Defense
(Transportation Policy) met with the Deputy Inspector General, DoD, on
April 16, 2001, to discuss the recommendations and tone of the report prior to
submitting comments. The Assistant Deputy Under Secretary of Defense
(Transportation Policy) comments on renumbered Recommendation B.1.b. (draft
report Recommendation B.1.d.) are fully responsive. The Assistant Deputy
Under Secretary of Defense (Transportation Policy) comments on revised
Recommendation B.1.a. are nonresponsive. PowerTrack® is more than a
commercial off-the-shelf web-based application. PowerTrack® is an electronic
commerce application that stores DoD data and is an integral part of the DoD
transportation payment process. Regardless of whether the electronic commerce
application is a new means for doing business within DoD, management is
ultimately responsible for implementing sound financial management practices and
systems. Current policy exists that defines management responsibility for
establishing effective internal and system controls. With the Department’s plans
for PowerTrack® to operate as a subsidiary ledger for transportation, it is
imperative for PowerTrack® to substantially comply with the same Federal
financial system requirements as the rest of DoD accounting, finance, and feeder
systems.

It is not bureaucratic to recommend the responsible proponent to act prudently
to protect DoD data and aggressively implement information assurance
requirements. Although appointment of a Designated Approving Authority and
Information System Security Officer seems appropriate for security risk
management of PowerTrack, the execution of the requirements placed on the
Under Secretary of Defense for Acquisition, Technology, and Logistics by the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) August 30, 2000, memorandum will also meet the intent of draft
report Recommendations B.1.a, B.1.b., and B.1.c. The memorandum stated
that integration of commercial services with existing DoD legacy systems is a
new implementation model but does not require a DITSCAP certification and
accreditation. However, the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) memorandum elaborated by stating
that up front consideration to understand the impact of the implementation on
DoD network information assurance is required. In addition, the executive
agent responsible for the business process should ensure that risks associated
with the use of commercial off-the-shelf web-based applications are understood
and the mitigation of those risks is planned. The executive agent, in
collaboration with each affected Component CIO, will determine the DoD–wide
approach for determining, mitigating and accepting risk of implementation.
Establishing an executive agent responsible for overall management controls
associated with the automated transportation payment process and executing the
requirements established by the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) will meet the intent of our draft
report Recommendations B.1.a., B.1.b., and B.1.c. Therefore, we request the
Under Secretary of Defense for Acquisition, Technology, and Logistics
reconsider the revised recommendation.




                                    25
B.2. We recommend that the Under Secretary of Defense (Comptroller):

     a. Retain Certifying Officer responsibilities at the Defense Finance
Accounting Service for PowerTrack® payments.

       b. Revise the DoD Financial Management Regulation to reflect changes
in the Defense Transportation Regulation as they pertain to Funds Managers’
use of PowerTrack®.

Management Comments. The Deputy Chief Financial Officer, Under Secretary of
Defense (Comptroller) concurred in principle with Recommendation B.2.b. stating
that the Defense Transportation Regulations would be reviewed and the DoD
Financial Management Regulation updated as appropriate. The Deputy Chief
Financial Officer, Under Secretary of Defense (Comptroller) nonconcurred with
Recommendation B.2.a. stating that the Transportation Officers do have the
expertise to certify the monthly billing statement because the Transportation Officer
is the only one responsible for assuring that the transportation services requested are
for valid purposes. The Transportation Officer must understand and have access to
financial data and rely on the controls in place to ensure that the information
obtained is valid and funding is available. Sound financial management and internal
controls for disbursing practices dictate that Certifying Officers be independent and
organizationally separate whenever practical.

Audit Response. The Deputy Chief Financial Officer, Under Secretary of Defense
(Comptroller) comments are responsive to Recommendation B.2.b. and
nonresponsive to Recommendation B.2.a. To ensure strong internal controls, the
Certifying Officer must know the subject matter (that is, transportation), voucher
preparation, appropriations, accounting classifications, and payment process.
Although we agree with the Deputy Chief Financial Officer, Under Secretary of
Defense (Comptroller) that the Transportation Officer is the most knowledgeable
individual for assuring that the transportation services requested are valid, he is not
the most knowledgeable individual on the obligation data supporting the 13,000
LOAs. A representative from the Under Secretary of Defense (Comptroller) stated
during a meeting with us on April 16, 2001, that a task force was formed to explore
ways to provide the Transportation Offices with the additional funding knowledge
but to date it has yet to occur. Current practice is asking the Transportation Officer
to rely on the financial data even though during a 14-month period DFAS was unable
to validate 73 percent of the financial data in PowerTrack. DFAS, which is
knowledgeable in voucher preparation, appropriations, accounting classifications,
and the payment process and has access to appropriations, should rely on the
Transportation Officer with regard to the legality and validity of the shipment. The
Transportation Officer acting as the accountable official would be responsible for the
internal controls related to the shipment and approval of carrier payment; applicable
DoD regulations; providing the Certifying Officer with timely and accurate data to
ensure that payments are supportable, legal, and computed correctly; and timely
reconciliation of possible or actual erroneous payments. The Transportation Officer
will still be pecuniarily liable for erroneous payments made as a result of negligent
performance of official duties. We request the Under Secretary of Defense
(Comptroller) reconsider Recommendation B.2.a. and provide additional comments
to the final report.




                                      26
B.3. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence):

       a. Establish guidance to clarify management responsibilities and ensure
that the appropriate level of information security is applied and associated
risks are assessed when using any information system that transmits, stores, or
displays DoD information. The guidance should be specific to commercial off-
the-shelf products and electronic commerce applications used but not owned
by the Government, such as PowerTrack®.

      b. Establish standard contracting language for all information systems
contracts. The contracting language should identify the responsibilities for
ensuring compliance with financial management systems requirements and
systems and data security for electronic commerce applications that are used
but not owned by the Government.

       c. Update policy to establish the applicability of Defense Information
Technology Security Certification and Accreditation Process to commercial
off-the-shelf products and electronic commerce applications used but not
owned by the Government, such as PowerTrack®.

      d. Provide guidance to clarify the Designated Approving Authority
responsibilities with respect to the coverage of DoD-wide information systems
including the use of commercial off-the-shelf products and electronic
commerce applications, such as PowerTrack®.

      e. Validate the security connection and all security controls associated
with using PowerTrack®.

Management Comments. The Deputy Chief Information Officer, Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
concurred in principle with all recommendations, stating that current guidance
already exists that describes management responsibilities with regard to systems
security and risk assessments and the Designated Approving Authority. A
distinction was made between commercial off-the-shelf products and electronic
commerce applications. A new 8500-series Information Assurance policy is being
issued that will consolidate current guidance and policies and include additional
policy and procedures that will explicitly address commercial off-the-shelf products
and electronic commerce applications, such as PowerTrack®. Management is
working with the Under Secretary of Defense for Acquisition, Technology, and
Logistics to determine whether additional contracting language is necessary.
Management stated that DITSCAP instructions are also being reviewed and will
incorporate instructions on commercial off-the-shelf products and electronic
commerce applications. Management has already taken action to validate the use
of ActiveX mobile code to ensure its use complies with DoD policy.




                                     27
Audit Response. The Deputy Chief Information Officer, Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) comments are
partially responsive. Management validated and approved the use of ActiveX
mobile code in the PowerTrack® application, however, no specific actions were
discussed about actions taken to validate the security controls in PowerTrack.
Therefore, management is requested to provide additional comments to the final
report on Recommendation B.3.e. explaining specific actions planned and expected
completion date for validating the security controls in PowerTrack.

B.4. We recommend that the U.S. Transportation Command:

      a. Ensure that each transportation office assigns an individual who is
not involved in payment approving and certifying processes to administer and
control PowerTrack® profiles.

      b. Implement Public Key Infrastructure access based on Federal
Information Protection Standard 228, level 2 for all PowerTrack®
transactions, access, and data transmission.

     c. Revise the Defense Transportation Regulation to reflect the current
automated transportation freight payment process.

      d. Ensure that Transportation Officers are trained and fully understand
the transportation payment process and functionality of PowerTrack®.

     e. Develop and implement standard operating procedures to establish
and monitor PowerTrack® access, user privileges and carrier profiles.

Management Comments. The Assistant Deputy Under Secretary of Defense
(Transportation Policy) coordinated her response with the U.S. Transportation
Command. Management concurred with Recommendation B.4.c. stating that the
Defense Transportation Regulation was updated and reflected the current process
for all transportation modes. Management concurred with
Recommendation B.4.c., and concurred in principle with Recommendations
B.4.a., B.4.b., B.4.d., and B.4.e. stating that the actions recommended are
needed, but did not believe that U.S. Transportation Command is responsible for
implementing the recommended actions and believes that Recommendations B.4.a.,
B.4.b., B.4.d., and B.4.e. are more appropriately suited for the Military
Components and Defense agencies.

Audit Response. Management comments are nonresponsive. We believe that the
U.S. Transportation Command needs to take responsibility for the automated
transportation payment process and ensure that management controls are
established and effective to safeguard DoD assets. We request that the Under
Secretary of Defense for Acquisition, Technology, and Logistics reconsider its
responsibilities and provide comments to Recommendations B.4.a., B.4.b., B.4.c.,
and B.4.d. on the final report.




                                   28
B.5. We recommend that the each of the Chief Information Officer of the
Military Components:

      a. Ensure that the System Security Authorization Agreement associated
with each transportation office includes the PowerTrack® application.

      b. Disable the downloading and execution of all mobile code on all local
systems unless the mobile code is compliant with DoD policy.

Army Comments. The Army did not comment on the draft of this report.

Navy Comments. The Navy concurred with the recommendations, stating that it
will ensure that System Security Authorization Agreements associated with each
transportation office are updated to include the PowerTrack® application and ensure
that all mobile code is executed in compliance with DoD policy.

Air Force Comments. The Air Force concurred with the
Recommendation B.5.b., stating that it will issue instruction for all relevant parties
to comply with DoD mobile code policy. The Air Force did not comment on
Recommendation B.5.a.

Audit Response. The Navy comments are fully responsive. The Air Force
comments are responsive on Recommendation B.5.b. We request that the Army
provide comments on the final report and that the Air Force provide comments on
Recommendation B.5.a. on the final report.




                                      29
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We evaluated the controls over the automated transportation
    freight payment process, data accuracy, financial reporting requirements, and the
    implementation of the PowerTrack® service. Specifically, in February 2000, we
    judgmentally selected 12 transportation offices from a universe of 440 offices using
    PowerTrack® to review their automated transportation payment process. The sites
    visited included two Army, two Air Force, three Navy, three Defense Logistics
    Agency activities, and two Defense Contract Management Agency activities. The
    sites were selected based on geographic location, volume of transactions processed
    through PowerTrack®, and Defense activity.

    At 11 of the 12 sites, we reviewed monthly bank statements certified during the
    months of December 1999 through March 2000. We reviewed 1,833 transactions
    processed on 19 certified monthly bank statements. We interviewed personnel
    involved in the transportation payment process including Transportation Officers
    and Funds Managers. We extracted and analyzed PowerTrack® data processed
    from February 1999 through May 2000. We researched laws and regulations
    governing financial reporting requirements. We met with representatives from the
    Office of the Assistant Deputy Under Secretary of Defense (Transportation
    Policy); DFAS; the DoD transportation community; PricewaterhouseCoopers,
    Limited Liability Partnership; and U.S. Bank.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goals, subordinate performance goals and
    performance measures.

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative superiority
    in key warfighting capabilities. Transform the force by exploiting the Revolution
    in Military Affairs, and reengineer the Department to achieve a 21st century
    infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD acquisition processes.
               (01-DoD-2.4) FY 2001 Performance Measure 2.4.5: Percentage of
               DoD Paperless Transactions. (01-DoD-2.4.5)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
               and information management. (01-DoD-2.5) FY 2001 Performance
               Measure 2.5.3: Qualitative Assessment of Reforming Information
               Technology Management. (01-DoD-2.5.3)




                                         30
DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goals.

       •   Financial Management Functional Area. Objective: Consolidate
           finance and accounting operations. Goal: Reduce and improve
           accounting systems. (FM-2.2)

       •   Financial Management Functional Area. Objective: Eliminate
           problem disbursements. Goal: Reduce problem disbursements by over
           60 percent. (FM-3.1)

       •   Financial Management Functional Area. Objective: Strengthen
           internal controls. Goal: Improve compliance with the Federal
           Managers’ Financial Integrity Act. (FM-5.3)

GAO High-Risk Area. The GAO has identified several high-risk areas in the
DoD. This report provides coverage of the Defense Financial Management
high-risk area.

Use of Computer-Processed Data. To achieve the audit objectives, we relied on
computer-processed data contained in PowerTrack®. Our review of data processed
through the system showed an error rate that questions the validity of the data.
However, when the data are reviewed in context with other available evidence, we
believe that the opinions, conclusions, and recommendations in this report are
valid.

Audit Type, Dates, and Standards. We performed this financial-related
program audit from October 1999 through February 2001, in accordance with
auditing standards issued by the Comptroller General of the United States, as
implemented by the Inspector General, DoD. We did our work in accordance
with generally accepted Government auditing standards except that we were
unable to obtain an opinion on our system of quality control. The most recent
external quality control review was withdrawn on March 15, 2001, and we will
undergo a new review.

Universe and Sample. Of 440 total transportation offices identified by
U.S. Bank, we judgmentally sampled 12 transportation offices. At 11 of the 12
sites, we extracted and totaled, by site, for each month, the number of commercial
freight shipments and electronic bills with the corresponding dollar amount,
number of transportation control numbers and LOAs processed through
PowerTrack®.

Use of Technical Assistance. The Quantitative Methods Division of the Office of
Assistant Inspector General for Auditing assisted the audit by computing late
payment charges incurred from January 2000 through September 2000. The
charges were computed based on simple interest computations assuming an annual
interest rate of 6.75 percent and 365 days in a year. Interest was calculated based
on past due DoD PowerTrack® balances on intervals of 15 days, 45 days,
75 days, 105 days, 135 days, and 165 days during the period.




                                     31
     Contacts During the Audit. We visited or contacted individuals and organizations
     within DoD; PricewaterhouseCoopers, Limited Liability Partnership; and
     U.S. Bank. Further details are available upon request.

Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
     1996, and DoD Instruction 5010.40, “Management Control (MC) Program
     Procedures,” August 28, 1996, require DoD organizations to implement a
     comprehensive system of management controls that provides reasonable
     assurance that programs are operating as intended and to evaluate the adequacy
     of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of management controls over the automated transportation payment
     process accomplished through the PowerTrack® service. Specifically, we reviewed
     transportation office management controls over approving carrier payments,
     certifying monthly invoices, and system security. We did not review
     management’s self-evaluation applicable to those controls because the PowerTrack®
     service was not fully implemented or operational.

     Adequacy of Management Controls. We identified material management control
     weaknesses within the automated transportation payment process and PowerTrack®
     service as defined by DoD Instruction 5010.40. The management controls over the
     automated transportation payment process and PowerTrack® service were not
     adequate to ensure DoD resources were safeguarded. For a detailed discussion on
     the management control weaknesses identified during our review, see finding B of
     the report. A copy of the report will be provided to the senior official responsible
     for management controls in the Office of the Under Secretary of Defense for
     Acquisition, Technology, and Logistics.

Prior Coverage
General Accounting Office
     GAO Report No. NSIAD-00-72 (OSD Case No. 2014), “Defense Management:
     Actions Needed to Sustain Reform Initiatives and Achieve Greater Results,”
     July 25, 2000

     GAO Report No. NSIAD-00-108 (OSD Case No. 2006), “Defense Management:
     Electronic Commerce Implementation Strategy Can Be Improved,” July 18, 2000

     GAO Report No. NSIAD-00-7 (OSD Case No. 1890), “Defense Transportation:
     Process Reengineering Could Be Enhanced by Performance Measures,”
     December 20, 1999

     GAO Testimony No. T-AMID/NSIAD-00-264, “Implication of Financial
     Management Issues,” testimony of Jeffrey C. Steinhoff before the Task Force on
     Defense and International Relations, Committee on the Budget, House of
     Representatives, release date July 20, 2000



                                          32
     GAO, “Results of FY 1999 Financial Audit of the Department of Defense,”
     testimony of Jeffrey C. Steinhoff before a hearing of the Subcommittee on
     Government Management, Information, and Technology, release date May 9, 2000


Inspector General
     Inspector General, DoD, Report No. 96-044, “Freight Shipment Deliveries,”
     December 12, 1995

     Inspector General, DoD, Report No. 98-016, “Controls over Government Bills of
     Lading,” November 3, 1998

     Inspector General, “Department of Defense Financial Management,” testimony of
     Robert J. Lieberman before the Task Force on Defense and International Relations,
     House Committee on the Budget, release date July 20, 2000

     Inspector General, “Results of FY 1999 Financial Audit of the Department of
     Defense,” testimony of Robert J. Lieberman - Assistant Inspector General for
     Auditing, Department of Defense, before a hearing of the Subcommittee on
     Government Management, Information, and Technology, release date May 9, 2000




                                        33
                   1                                                                                                 Carrier
                       Obtain
                                L OA
      Requestor                              $   $                                        nt                                                   8
                                               $                           4       Shipme n
                                                                                        a tio
                                                                                  inform


                                                                                                                                        U.
                                             Fund
                                                                                                                                          S
                                           Fund
                                           Manager                                                                                            .B
                                                                                                                                                 a
                                                                                                                           6
                                          Manager              Shipper
                                                                                                                                                nk
                                                                                                                                                     pa


                                                               System
                                                                                                                                                        y




                                                                                              5                             No
                                                                                                                                                       sc




       request
                                              ion                                                                              tif




      Shipment
                                                                                                                                   i
                                                                                                                                                        ar
                                                                                                                                                                                Process




                                       f ormat                                                     Shi
                                                                                                       p
                                  i   n
                                                                                                                                                           rie




                                                                                                           me                de es b
                                                                                                                                                               r




                         ent                                                                                                     liv an
                                                                                                                                                             s




                                                                                                             nt i
                  3 Shipm                                                                                         nfo                er k
      2                                                  9                                                            rm
                                                                                                                        atio           y of




34
                                                                                                                            n
                                                                      U.S. B
                                                                               ank in
                                                                                        v oi c e

                                                     9       U.S. Bank invoice
                                                             Approves carrier payments

     Transportation                                  7                                                                                        PowerTrack(R)
        Officer                                                                                                                                U.S. Bank
                    10
                            Certifie
                                     s                                                                                    nk
                           invoice U.S. Bank                                                                     .   Ba
                                   for pay                                                                   U.S
                                          ment                                                11      ys
                                                                                                    Pa
                                                                                                                                Manual Process
                                                                                                                                Electronic Process
                                                                  DFAS
                                                                                                                                Future Proposed Process
                                                                  Center
                                                                                                                                                                   Appendix B. Automated Transportation Payment
Implementation Steps
    1.   Requestor obtains the designated and funded LOA for the shipment from the
         Funds Manager.

    2.   Requestor provides shipment request to the Transportation Officer.

    3.   Shipment information is entered into the shipper systems (Defense Supply
         Services/Electronic Transportation Acquisition/Cargo Movement Operation
         Systems) and carriers are assigned.

    4.   Carrier picks up shipment and a hardcopy of the bill of lading.

    5.   Shipment information is released to PowerTrack® from the shipper systems.

    6.   The carrier delivers the shipment and enters notice of delivery into
         PowerTrack®. The invoice is then generated using one of the following
         invoicing methods.

             Self Invoicing. The invoice is generated using the Transportation Officer
             shipping data.

             Matching. Two invoices are generated. One invoice is generated using
             the Transportation Officer shipping data (self invoicing) and the other
             invoice is generated using the carriers shipping data (carrier invoicing).
             The invoices are matched electronically in PowerTrack®.

             Carrier Invoicing. The invoice is generated using the carrier’s shipping
             data.

    7.   Carrier payments are approved. U.S. Bank defines the method of approval in
         PowerTrack® by carrier and the transportation office.

             Manual Approval. Transportation Officer manually reviews and
             approves carrier payment in PowerTrack® after the carrier posts the
             notice of delivery in PowerTrack®.

             Automatic Approval. PowerTrack® automatically approves carrier
             payment without the Transportation Officer review once the carrier posts
             the notice of delivery in PowerTrack®.

    8.   U.S. Bank pays carrier based on approved invoice.

    9.   Transportation office in coordination with the Funds Managers’ review
         U.S. Bank monthly invoice to ensure it reflects appropriate LOAs and actual
         carrier charges.

    10. Transportation Officer certifies U.S. Bank monthly invoice and submits it to
        DFAS for payment to U.S. Bank.

    11. DFAS pays U.S. Bank.



                                         35
Appendix C. Examples of Lines of Accounting
   We randomly selected 15 LOAs for review. Nine LOAs were selected from the
   Transportation Officer's certified invoices and the other six LOAs were selected
   from the PowerTrack® system April 2000 invoices. Of the 15 LOAs reviewed,
   9 LOAs were inaccurate.

  Army Lines of Accounting. We reviewed five Army LOAs. Four of the LOAs
  were inaccurate. For example, one LOA identified the expenditure of Army
  Procurement funds belonging to the Army Tank Automotive Command that were
  used for the Heavy Tactical Vehicles Program. The LOA also identified that the
  funds were used for commercial land transportation. The program identification code
  for the Heavy Tactical Vehicles Program and the fiscal year were incorrectly stated.
  Transportation of Things object class for the Army Tank Automotive Command,
  Heavy Tactical Vehicles program makes up less than 0.78 percent of the total
  FY 2000 Heavy Tactical Vehicles Program budget.

  Navy Lines of Accounting. We reviewed two different Navy LOAs that were
  extracted from the PowerTrack® database. According to the Navy, the LOAs were
  missing the accounting classification reference number. In addition, one LOA was
  missing the standard document number and the other was missing the fiscal year.
  The LOAs identified Operation and Maintenance Navy appropriation allocated to
  the Naval Transportation Support Center which centrally manages the Naval Supply
  System Command Operation and Maintenance funds for the Transportation of
  Things object class. Transportation represents roughly 44 percent of the total
  FY 2000 Naval Supply System Command total Operation and Maintenance budget.

  Marine Corps Lines of Accounting. We reviewed one Marine Corps LOA, which
  was incorrect because the fiscal year and transportation account code did not agree.
  The fiscal year annotated in the LOA identified Headquarters, Marine Corps
  Operation and Maintenance funds for FY 1999 for the Transportation of Things
  object class. The transportation account code, MG50, was a FY 2000 code.
  Nevertheless, the Transportation Officer certified the LOA and submitted it to DFAS
  for payment. The Marine Corp funds for the Transportation of Things object class
  were centrally managed and represented less than one percent of Headquarters,
  Marine Corps Operation and Maintenance funds.

  Air Force Lines of Accounting. We reviewed three Air Force LOAs and one was
  inaccurate. The Transportation Officer certified an invoice with an inaccurate LOA.
  The LOA misstated the Operation and Maintenance appropriation code. The LOA
  identified the Air Combat Command, 1st Fighter Wing, Traffic Management
  Squadron at Langley Air Force Base, FY 2000 Operation and Maintenance funds for
  the Transportation of Things object class. For FY 2000, Transportation of Things
  object class represents roughly .06 percent of the 1st Fighter Wing Operation and
  Maintenance budget.

  Defense Logistics Agency Lines of Accounting. We reviewed four LOAs belonging
  to the Defense Logistics Agency working capital fund. According to the Defense
  Logistics Agency, only one of the LOAs contained an error. The object class was
  alphanumeric and not numeric. For FY 1999 and FY 2000 Transportation of Things
  object class represented roughly 0.0025 percent and 0.0036 percent, respectively, of
  Defense Logistics Agency working capital fund budget.

                                        36
Appendix D. Criteria
   Section 3512, Title 31, United States Code. The U.S. Code requires agencies
   to establish and maintain systems of accounting and internal controls to provide
   adequate financial information the agency needs for management purposes. The
   systems should also provide effective control over and accountability for assets
   for which the agency is responsible.

   Federal Financial Management Improvement Act (FFMIA). The FFMIA
   requires agencies to implement and maintain financial management systems that
   comply substantially with Federal financial management systems requirements,
   applicable Federal accounting standards, and the Standard General Ledger at the
   transaction level. In addition, the FFMIA states that financial management
   systems include the financial systems and the financial portions of mixed systems
   necessary to support financial management, including automated and manual
   processes, procedures, controls, data, hardware, software, and support personnel
   dedicated to the operation and maintenance of system functions.

   Computer Security Act of 1987. The “Computer Security Act of 1987,” Public
   Law 100-235, requires the establishment of security plans by agencies of Federal
   computer systems that contain sensitive information. The Act defines a “Federal
   computer system” as “. . . a computer system operated by a Federal agency or by
   a contractor of a Federal agency or other organization that processes information
   on behalf of the Federal Government to accomplish a Federal function . . .”. The
   Act defines the term “sensitive information” to mean “. . . any information, the
   loss, misuse, or unauthorized access to or modification of which could adversely
   affect the … conduct of Federal programs, or the privacy to which individuals are
   entitled under 5 U.S.C. 552a (the Privacy Act).” PowerTrack®, by virtue of its
   application within DoD, is a Federal computer system and contains sensitive data,
   and the requirements established in Public Law 100-235 are applicable.

   Prompt Payment Act. OMB final rule on the Prompt Payment Act, 5 Code of
   Federal Regulations, Part 1315, and OMB Circular No. A-123, “Management
   Accountability and Control,” which implements the Prompt Payment Act, requires
   agency heads to issue internal procedures for monitoring the causes of late
   payments and interest charges incurred. In addition, the agency head must ensure
   that effective internal control systems are established and maintained.
   Administrative activities required for payments to vendors under this part are
   subject to periodic quality control validation to be conducted no less frequently than
   once a year. Quality control processes will be used to confirm that controls are
   effective and that processes are efficient. Each agency head is responsible for
   establishing a quality control program in order to quantify payment performance,
   qualify corrective actions, aid cash management decision-making, and estimate
   payment performance if actual data are unavailable.

   OMB Circular No. A-130. The OMB Circular No. A-130, “Management of
   Federal Information Resources,” February 8, 1996, establishes policy for the
   management of Federal information resources and links automated information
   security programs and management control systems established in accordance with
   OMB Circular A-123. The established criteria require that the automated
   information systems safeguard information against tampering, loss, and
   destruction. Automated information systems are defined as an assembly of

                                        37
computer hardware, software, firmware, or some combination of the three,
configured to collect, create, communicate, compute, disseminate, process, store,
or control data or information and includes application and operating system
software. Because PowerTrack® is an integral part of the transportation payment
process, the requirements established in OMB Circular A-130 are applicable.

OMB Circular No. A-127. OMB Circular No. A-127, “Financial Management
Systems,” revised June 10, 1999, outlines the financial management system
requirements that are now statutorily required by the FFMIA. It prescribes policy
and standards to follow in developing, operating, evaluating, and reporting on
financial management systems. The financial management system requirements
require compliance with security controls in accordance with the Computer Security
Act of 1987 and OMB Circular A-130. It also requires a system of internal controls
that ensures resources are used consistent with laws, regulations, and policies;
resources are safeguarded against waste, loss, and misuse; and reliable data are
obtained, maintained, and disclosed, as prescribed in OMB Circular A-123.
Financial management systems are defined as information systems that collect,
process, maintain, or transmit financial events to support financial management.
PowerTrack® collects, maintains, and transmits financial data and is integral to the
financial management of transportation and therefore is considered a financial
management system.

OMB Circular No. A-123. OMB Circular No. A-123, “Management
Accountability and Control,” June 21, 1995, incorporates provisions of the Federal
Managers’ Financial Integrity Act. OMB Circular A-123 provides guidance to
Federal managers on improving accountability and effectiveness as they reengineer
agency operations and programs. It requires that management controls be
established to ensure that laws and regulations are followed; intended results are
achieved; programs and resources are protected from waste, fraud and
mismanagement; and information is reliable, timely, and available for decision
making.

GAO Publication GAO/AIMD-00-21.3.1. GAO Publication
GAO/AIMD-00-21.3.1, “Standards for Internal Control in the Federal
Government,” November 1999, establishes the overall framework for controls in
the Federal Government. The five standards for internal controls are Control
Environment, Risk Assessment, Control Activities, Information and
Communications, and Monitoring. The standards require the minimum level of
quality acceptable for internal controls in the Government and provide the basis
against which all are to be evaluated and applied to all aspects of an agency's
operations.

DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
Automated Information Systems,” March 21, 1988, applies to all automated
information systems including application system software. DoD
Directive 5200.28 incorporates requirements of OMB Circular A-130. DoD
Directive 5200.28 states that each Component head shall assign a Designated
Approving Authority that is responsible for the accreditation of each automated
information system.

       •   Accreditation is the formal declaration of the automated information
           system or application to operate. The accreditation is based on a
           certification process.


                                    38
       •   Certification is a comprehensive evaluation of the technical and non-
           technical security features of an information technology system and
           other safeguards made in support of the accreditation process.

DoD Directive 5200.28 also outlines the minimum system security necessary for
automated information systems. Each automated information system should
safeguard information against tampering, loss, and destruction. Because
PowerTrack® service is part of the DoD automated transportation payment process,
the automated information systems requirements established in DoD
Directive 5200.28 are applicable.

DoD Instruction 5200.40. DoD Instruction 5200.40, “Defense Information
Technology Certification and Accreditation Process,” December 30, 1997,
implements the system security requirements identified in Public Law 100-235,
“Computer Security Act of 1987,” OMB Circular A-130, and DoD
Directive 5200.28. DoD Instruction 5200.40 prescribes procedures for the
certification and accreditation process with an emphasis on the system life-cycle
management approach. In addition, it creates a process for the Certification and
Accreditation of DoD systems. DoD Instruction 5200.40 is applicable to the DoD
Components and their contractors, including U.S. Bank, and any system
incorporated into a DoD infrastructure, including PowerTrack®. It applies to the
acquisition, operation, and sustainment of any DoD system that collects, stores,
transmits, or processes information including PowerTrack®.




                                     39
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant Deputy Under Secretary of Defense (Transportation Policy)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Auditor General, Department of the Army
Commander, Army Materiel Command
Commander, Blue Grass Army Depot
Commander, Fort Knox

Department of the Navy
Commandant, Marine Corps
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command
  Commanding Officer, Naval Air Station Oceana
Commander, Naval Supply Systems Command
  Commanding Officer, Fleet and Industrial Supply Center Norfolk
Commander, Space and Naval Warfare Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
Commander, Langley Air Force Base
Commander, Wright-Patterson Air Force Base

Unified Command
Commander in Chief, U.S. Transportation Command




                                          40
Other Defense Organizations
Director, Defense Contract Management Agency
   Defense Contract Management District East
      Defense Contract Management Command Dayton
   Defense Contract Management District West
      Defense Contract Management Command San Diego
Director, Defense Finance and Accounting Service
   Cleveland
      Norfolk
   Columbus
   Denver
      Dayton
   Indianapolis
   Kansas City
Director, Defense Information Security Agency
Director, Defense Logistics Agency
   Defense Distribution Center
      Defense Depot Center Susquehanna
      Defense Distribution Depot Center Norfolk
      Defense Distribution Depot Center San Diego

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                          41
Under Secretary of Defense (Comptroller)
 Comments




                       43
44
45
46
Under Secretary of Defense for Acquisition,
 Technology, and Logistics Comments

                                                 Final Report
                                                  Reference




                                              Revised and
                                              renumbered as
                                              Recommendation
                                              B.1.a.




                        47
48
       Final Report
        Reference




     Revised and
     renumbered as
     Recommendation
     B.1.a.




     Renumbered as
     Recommendation
     B.1.b.




49
50
     Final Report
      Reference




51
Final Report
 Reference




Page 7 & 8




  Page 14




               52
     Final Report
      Reference




       Page 14




       Page 16




       Page 16




       Page 18




53
  Final
 Report
Reference




Page 19



Page 20




Page 22




Page 26




Page 26




Page 29




            54
     Final Report
      Reference




       Page 35




55
Assistant Secretary of Defense (Command, Control,
 Communications, and Intelligence) Comments




                       56
57
Department of the Navy Comments




                     58
Department of the Air Force Comments




                      59
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Addie M. Beima
Danny B. Convis
Suellen R. Brittingham
Dorothy Jones
Carolyn J. Davis
Stacey A. Sowers
Shanell T. Deal
Brentley B. Roberts
Joyce L. Clayton
Innocencio E. Penaranda
Wen-Tswan Chen
